<html>
<title> - REBUILDING HIGHWAY AND TRANSIT INFRASTRUCTURE ON THE GULF COAST FOLLOWING HURRICANE KATRINA-- STATE AND LOCAL OFFICIALS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]





    REBUILDING HIGHWAY AND TRANSIT INFRASTRUCTURE ON THE GULF COAST 
         FOLLOWING HURRICANE KATRINA--STATE AND LOCAL OFFICIALS

=======================================================================

                                (109-39)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    HIGHWAYS, TRANSIT AND PIPELINES

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 27, 2005

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


                                 _____

                    U.S. GOVERNMENT PRINTING OFFICE
                           WASHINGTON : 2006 
25-919 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL, II, West Virginia
SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
WAYNE T. GILCHREST, Maryland         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
PETER HOEKSTRA, Michigan             CORRINE BROWN, Florida
VERNON J. EHLERS, Michigan           BOB FILNER, California
SPENCER BACHUS, Alabama              EDDIE BERNICE JOHNSON, Texas
STEVEN C. LaTOURETTE, Ohio           GENE TAYLOR, Mississippi
SUE W. KELLY, New York               JUANITA MILLENDER-McDONALD, 
RICHARD H. BAKER, Louisiana          California
ROBERT W. NEY, Ohio                  ELIJAH E. CUMMINGS, Maryland
FRANK A. LoBIONDO, New Jersey        EARL BLUMENAUER, Oregon
JERRY MORAN, Kansas                  ELLEN O. TAUSCHER, California
GARY G. MILLER, California           BILL PASCRELL, Jr., New Jersey
ROBIN HAYES, North Carolina          LEONARD L. BOSWELL, Iowa
ROB SIMMONS, Connecticut             TIM HOLDEN, Pennsylvania
HENRY E. BROWN, Jr., South Carolina  BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         SHELLEY BERKLEY, Nevada
TODD RUSSELL PLATTS, Pennsylvania    JIM MATHESON, Utah
SAM GRAVES, Missouri                 MICHAEL M. HONDA, California
MARK R. KENNEDY, Minnesota           RICK LARSEN, Washington
BILL SHUSTER, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
JOHN BOOZMAN, Arkansas               ANTHONY D. WEINER, New York
JIM GERLACH, Pennsylvania            JULIA CARSON, Indiana
MARIO DIAZ-BALART, Florida           TIMOTHY H. BISHOP, New York
JON C. PORTER, Nevada                MICHAEL H. MICHAUD, Maine
TOM OSBORNE, Nebraska                LINCOLN DAVIS, Tennessee
KENNY MARCHANT, Texas                BEN CHANDLER, Kentucky
MICHAEL E. SODREL, Indiana           BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania        RUSS CARNAHAN, Missouri
TED POE, Texas                       ALLYSON Y. SCHWARTZ, Pennsylvania
DAVID G. REICHERT, Washington        JOHN T. SALAZAR, Colorado
CONNIE MACK, Florida                 JOHN BARROW, Georgia
JOHN R. `RANDY' KUHL, Jr., New York
LUIS G. FORTUNO, Puerto Rico
LYNN A. WESTMORELAND, Georgia
CHARLES W. BOUSTANY, Jr., Louisiana
JEAN SCHMIDT, Ohio

                                  (ii)



            SUBCOMMITTEE ON HIGHWAYS, TRANSIT AND PIPELINES

                  THOMAS E. PETRI, Wisconsin, Chairman

SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         NICK J. RAHALL II, West Virginia
JOHN J. DUNCAN, Jr., Tennessee       JERROLD NADLER, New York
JOHN L. MICA, Florida                GENE TAYLOR, Mississippi
PETER HOEKSTRA, Michigan             JUANITA MILLENDER-McDONALD, 
SPENCER BACHUS, Alabama              California
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
SUE W. KELLY, New York               EARL BLUMENAUER, Oregon
RICHARD H. BAKER, Louisiana          ELLEN O. TAUSCHER, California
ROBERT W. NEY, Ohio                  BILL PASCRELL, JR., New Jersey
FRANK A. LoBIONDO, New Jersey        TIM HOLDEN, Pennsylvania
JERRY MORAN, Kansas                  BRIAN BAIRD, Washington
GARY G. MILLER, California, Vice-    SHELLEY BERKLEY, Nevada
Chair                                JIM MATHESON, Utah
ROBIN HAYES, North Carolina          MICHAEL M. HONDA, California
ROB SIMMONS, Connecticut             RICK LARSEN, Washington
HENRY E. BROWN, Jr., South Carolina  MICHAEL E. CAPUANO, Massachusetts
TIMOTHY V. JOHNSON, Illinois         ANTHONY D. WEINER, New York
TODD RUSSELL PLATTS, Pennsylvania    JULIA CARSON, Indiana
SAM GRAVES, Missouri                 TIMOTHY H. BISHOP, New York
MARK R. KENNEDY, Minnesota           MICHAEL H. MICHAUD, Maine
BILL SHUSTER, Pennsylvania           LINCOLN DAVIS, Tennessee
JOHN BOOZMAN, Arkansas               BEN CHANDLER, Kentucky
MARIO DIAZ-BALART, Florida           BRIAN HIGGINS, New York
JON C. PORTER, Nevada                RUSS CARNAHAN, Missouri
TOM OSBORNE, Nebraska                ALLYSON Y. SCHWARTZ, Pennsylvania
KENNY MARCHANT, Texas                JAMES L. OBERSTAR, Minnesota
MICHAEL E. SODREL, Indiana             (Ex Officio)
DAVID G. REICHERT, Washington
JEAN SCHMIDT, Ohio
DON YOUNG, Alaska
  (Ex Officio)

                                 (iii)

                                CONTENTS

                               TESTIMONY

                                                                   Page
 Bradbery, Johnny B., Secretary, Louisiana Department of 
  Transportation and Development.................................     2
 Brashear, Dwight D., Chief Executive Officer, Capital Area 
  Transit Systems................................................     2
 Brown, Wayne H., Southern District Commissioner, Mississippi 
  Department of Transportation...................................     2
 Deville, William, General Manager, New Orleans Regional Transit 
  Authority......................................................     2
 Hall, Dick, Central District Commissioner, Mississippi 
  Department of Transportation...................................     2
 Vaughn, Don, Chief Engineer, Alabama Department of 
  Transportation.................................................     2

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................    50
Cummings, Hon. Elijah, Maryland..................................    51
Porter, Hon. Jon, of Nevada......................................    78

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

 Bradbery, Johnny B..............................................    33
 Brashear, Dwight D..............................................    41
 Brown, Wayne H..................................................    46
 Deville, William................................................    56
 Hall, Dick......................................................    66
 Vaughn, Don.....................................................    68

                         ADDITION TO THE RECORD

Heavy and highway construction prevailing wage rates in Hurricane 
  Katrina impacted counties, Department of Labor, Office of Wage 
  and Hour, chart................................................    79

 
    REBUILDING HIGHWAY AND TRANSIT INFRASTRUCTURE ON THE GULF COAST 
        FOLLOWING HURRICANE KATRINA-- STATE AND LOCAL OFFICIALS

                              ----------                              


                       Thursday, October 27, 2005

        House of Representatives, Committee on 
            Transportation and Infrastructure, Subcommittee 
            on Highways, Transit, and Pipelines, 
            Washington, D.C.
    The subcommittee met, pursuant to call, at 2:00 p.m., in 
Room 2167, Rayburn House Office Building, Hon. Thomas E. Petri 
[chairman of the subcommittee] presiding.
    Mr. Petri. The Subcommittee will come to order. I would 
like to welcome the panel that is here before us. I will make 
an opening statement. Mr. DeFazio is in a busy time. There are 
hearings, and the House is in session on the floor.
    Mr. DeFazio has a bill that is up in another hearing. So he 
has asked his colleague, Mr. Taylor, to fill his slot as 
Ranking Member on the Subcommittee. Mr. Taylor is on his way 
here from another meeting and will be with us shortly.
    I would like, as I said, to welcome all the witnesses to 
today's hearing on Rebuilding Highway and Transit 
Infrastructure Following Hurricane Katrina--State and Local 
Officials. The purpose of today's hearing is to follow up on 
our hearing last Thursday when we heard from U.S. Department of 
Transportation officials regarding the transportation impacts 
of Hurricane Katrina.
    Today, we have invited State and Local transportation 
officials from Louisiana, Alabama, and Mississippi to update 
the Subcommittee and, through us, the Congress on the repair 
and replacement of highway and transit systems and the 
restoration of vital transportation services following the 
Category 4 hurricane that devastated the Gulf Coast Region on 
August 29th.
    Acting FHWA Administrator, Richard Capka, told us last week 
that they were aware that Interstate 10, U.S. 90, and other 
important highways in the Gulf Coast Region are the economic 
life blood of the hurricane-damaged region and play a central 
role in the economy of the entire Gulf Coast. The Federal 
Highway Administrator updated the Subcommittee on several 
projects that are currently underway and assured us that the 
long-term rebuilding effort will begin very soon.
    The Federal Highway Administrator highlighted priorities 
for the upcoming months which include funding transit services 
in areas that have a significant number of evacuees, 
implementing FEMA mission assessments in Louisiana and 
Mississippi, and securing FEMA emergency funding for assets 
damaged or destroyed, and engaging in a strategic planning 
process to ensure transportation options are part of future 
planning for cities and regions.
    I and other members of our Committee and other committees 
in the House visited the affected areas September 18th. On a 
helicopter tour, we saw the tremendous damage to the area's 
infrastructure that was left in the hurricane's wake. I also 
toured the FEMA Emergency Operations Center which is about 50 
yards behind the Convention Center, and it is impossible to 
convey the devastation that actually occurred down in that 
region. Only now are people moving back in and beginning the 
recovery process.
    In light of the overwhelming work that faces each of 
today's witnesses in restoring transportation facilities and 
services in the Gulf Region, I would like to personally thank 
each of you for traveling here today. You can give us a first-
hand view of the reconstruction process, both in the immediate 
future and also your views on longer term recovery plans. Your 
testimony will play a significant role in assessing the full 
impact of Hurricane Katrina.
    We look forward to hearing from you, and again we thank you 
for your testimony.
    Now I will turn over the microphone to Mr. Holden of 
Pennsylvania to make any opening statement he would care to 
make.
    Mr. Holden. Mr. Chairman, I was just promoted. So I don't 
have an opening statement. I thank you for holding this hearing 
on this very important matter and look forward to hearing from 
the witnesses.
    Mr. Petri. Very good. We will hold the record open, and I 
think Mr. Taylor may want to say something when he actually 
gets here.
    But at this point, we will turn to our witnesses. I will 
begin with Mr. Johnny B. Bradbery, Secretary of Louisiana 
Department of Transportation.

     TESTIMONY OF JOHNNY B. BRADBERY, SECRETARY, LOUISIANA 
   DEPARTMENT OF TRANSPORTATION AND DEVELOPMENT; DICK HALL, 
   CENTRAL DISTRICT COMMISSIONER, MISSISSIPPI DEPARTMENT OF 
TRANSPORTATION; WAYNE H. BROWN, SOUTHERN DISTRICT COMMISSIONER, 
  MISSISSIPPI DEPARTMENT OF TRANSPORTATION; DON VAUGHN, CHIEF 
    ENGINEER, ALABAMA DEPARTMENT OF TRANSPORTATION; WILLIAM 
    DEVILLE, GENERAL MANAGER, NEW ORLEANS REGIONAL TRANSIT 
  AUTHORITY; AND DWIGHT D. BRASHEAR, CHIEF EXECUTIVE OFFICER, 
                 CAPITAL AREA TRANSIT SYSTEMS.

    Mr. Bradbery. Chairman Petri and members of the 
Subcommittee, thank you for inviting me here today. I am Johnny 
Bradbery, Secretary of the Louisiana Department of 
Transportation and Development.
    I am truly honored to be here today, representing Governor 
Kathleen Blanco, the employees of DOTD, and the citizens of 
Louisiana who have shown great courage and strength throughout 
this tribulation. I hope my testimony and responses will help 
you in the important work you do for our Country's 
infrastructure.
    I want to brief you on what my agency has done in the last 
two months since Katrina hit. DOTD has removed more than one 
million cubic yards of debris from roads and bridges, enough to 
fill 33,000 garbage trucks. DOTD employees have inspected roads 
and bridges, side by side with Federal officials, and have 
carefully documented damage and estimated repair costs which 
are included in this report to your staff. Our employees and 
contractors already have repaired some of the damage, but there 
remains much to be done.
    One high profile job was the I-10 Twin Span Bridge which 
was severely damaged during Hurricane Katrina. Hundreds of 300 
ton concrete segments were knocked from the bridge into Lake 
Pontchartrain. DOTD had the low bid contractor on site within 
two weeks. DOTD directed the contractor to establish two-way 
traffic by October 27th which is today.
    Despite setbacks including a four day work stoppage for 
Rita, on October 14th, Louisiana officials and Secretary Mineta 
opened traffic on this vital interstate link. We finished the 
job ahead of schedule and $20 million under project estimate. 
That is the way we intend to all of our work.
    DOTD is doing the most it can with the resources it has. 
For several months, long before Katrina and Rita, DOTD 
employees had embarked on a process improvement initiative to 
find more efficient ways to do our work. We streamlined 
processes, changing the way we do many of our jobs. As a 
result, we announced plans last spring to trim our work force 
by nearly 500 positions, saving about $20 million a year.
    DOTD is working smarter and more efficiently, but today we 
desperately need our Country's help. Our $10.6 billion 
appropriations request is reasonable and relevant for the work 
that must be done. We worked closely with several agencies, 
including FEMA, the Federal Highway Administration, and Local 
officials to ensure our figures are as accurate as possible. 
The $10.6 billion request is divided between repair and 
replacement of infrastructure and critical transportation needs 
for future events.
    While these specific amounts are documented in supporting 
materials, I must point out some critical issues we are facing. 
DOTD has requested immediate release of $100 million in FHWA 
emergency relief funds to pay for emergency repairs. So far, we 
have received $5 million. The cost just to repair the Twin Span 
Bridge is $31 million. Our cash flow problem soon will become 
acute if we do not immediately receive this funding.
    Another critical issue involves timely FEMA reimbursement. 
We estimate that FEMA eligible repairs to roads, bridges, 
public ports, airports, public railroads, and transit will cost 
about $2.2 billion. Without quick reimbursement, much of this 
burden will have to be carried by local governments that have 
lost their tax base and are struggling to maintain their work 
force.
    There are many other critical issues I don't have time to 
fully discuss. We need waivers on the amount and time 
restrictions for emergency relief funds. We are in a potential 
dispute with FHWA and FEMA over the extent of roadway damage. 
We must replace the I-10 Twin Span Bridge with a six lane 
facility. Displaced citizens from the New Orleans area have 
caused overnight population surges in other Louisiana 
communities, stressing those already overburdened highways to a 
state of gridlock.
    In closing, let me again thank you for your time. My 
request is that you provide the necessary resources we need so 
we can continue to rebuild.
    Mr. Chairman, this concludes my report. I will be happy to 
further discuss critical issues and answers that you may have.
    Mr. Petri. Thank you very much. I should note your full 
statement will be made a part of the record, and we appreciate 
your summary. There will be questions when we finish.
    Next we have Mr. Wayne Brown, Southern District 
Commissioner, Mississippi Department of Transportation. Sir, 
thank you.
    Mr. Brown. Thank you, Mr. Chairman and members of the 
Committee, for this opportunity to come and discuss the 
critical issues dealing with Hurricane Katrina in the State of 
Mississippi.
    On August 29th, when Hurricane Katrina slammed the shore, 
our first estimate of the cost damage was $1.5 billion in the 
State of Mississippi to our road system. We later raised it to 
$1.8 billion, but as we got into the work and began to do the 
recovery, our estimate has been reduced to $695 million.
    We do think that there probably should be some 
consideration for emerging requirements and some discovery. 
Much of the work that we have got to do is under water or under 
sand, and there will be some discovery as we go along. And I 
would expect that our estimate probably would go no more than 
$750 million.
    The primary problem we had after Hurricane Katrina was a 
300 foot section of Interstate 10. The eastbound lanes were 
destroyed. We also had some outside beams destroyed that piled 
in on the center span on I-110 that serves the Biloxi Peninsula 
which was very important.
    Prior to the hurricane, Biloxi had 18 lanes of traffic 
serving the Peninsula. After the hurricane, there were five 
lanes. It went down from 18 to 5. We had three in, two out. It 
was real critical that we repair I-110. Also, U.S. Highway 90, 
the beach front part from Biloxi to Pass Christian, 26 miles, 
was heavily damaged.
    The Highway 90 Bridge over Bay of Biloxi and over the Bay 
St. Louis bay were destroyed. A tremendous amount of debris, 
signage, traffic signals, guardrails, those five things, all 
together are something in the neighborhood of $700 million.
    We need what Secretary Bradbery spoke of. We need time 
extensions, and we need money. The Mississippi Department of 
Transportation has a very tight budget, and we are spending 
that small amount of money we have. We have very limited 
borrowing capacity, and we are beginning to hit the wall on the 
money. And we need money so that we can continue with this 
recovery work.
    The U.S. 90 Bridges are anticipated to cost $400 million, 
$200 million a piece. The repair of Highway 90 and the debris, 
with all of that together, we anticipate spending $100 million 
this year, 300 next year in 2006, and 300 in 2007.
    Now, we have got a hard decision. Without some Federal 
funds, we are going to, number one, have to stop our recovery, 
or number two, we are going to have to look at some of our 
ongoing projects. Those of you know that it is very difficult 
to stop an ongoing project. So we have got to make those 
decisions, and we need some relief and need it quickly.
    Mississippi is prepared. We are ready. We have the 
engineers. We have the contractors. One thing that I am very 
proud of is that almost every contract that the Mississippi 
Department of Transportation has let has gone to Mississippi 
contractors. In other words, the contractors that are out of 
work because of Katrina have put back to work because of 
Katrina. So we have been able to bring on our regular 
contractors that were put out of work to continue with the 
Katrina work.
    As we sit here now, there are literally tens of thousands 
of people on the Mississippi Gulf Coast living in tents, living 
in motels. Some are fortunate enough to have FEMA trailers, and 
they are coming in at a rather rapid clip, but we still have 
literally thousands and thousands of people without housing. We 
have tens of thousands of people unemployed. Just in the casino 
industry, there are 17,000 unemployed people on the Mississippi 
Gulf Coast. It is imperative that we rebuild this 
infrastructure so that they can effect the recovery on the 
Mississippi Gulf Coast.
    We want to express our appreciation to you, to the 
Congress, and to the people of the United States who have 
poured out their support to us in an unprecedented manner, and 
we appreciate that. We appreciate the report of Rick Capka and 
Secretary Mineta from Federal Highway Administration. We want 
to assure you that the Mississippi Department of Transportation 
has been a good steward. We have been careful with the money, 
and we will continue to.
    But let me point out something to you. When you are 
standing in Biloxi, Mississippi, and there are literally 
thousands of trucks and hundreds of relief vehicles, and people 
going back through search and rescue teams, the Salvation Army, 
FEMA; and you have a lane out on a bridge, and you have got to 
repair that; and you see all that is needed there, you are more 
interested in time at that point and that you have money in 
repairing that.
    So if you look back, we may have not always made the best 
money decisions, but we think we made the best decisions, and 
we are going to continue. Now that we have time, we are going 
to see to it, and we are going to work very hard for this 
recovery. We just need your help.
    Thank you very much. I will be here and welcome your 
questions. Thank you.
    Mr. Petri. Thank you. Mr. Taylor has joined us and may want 
to say a word. The next witness is also from your State, and 
that is Mr. Hall.
    Mr. Taylor. I just want to thank Mr. Hall, who I had the 
pleasure of serving with in the State Legislature, and Mr. 
Brown for being here. I am sorry that I wasn't here at the 
beginning, as we have simultaneously, I think, three hearings 
on Hurricane Katrina, but obviously what you do is of utmost 
importance.
    I would hope at some point in your testimony, you would 
talk about what plans, or at least hopes, you have in addition 
to rebuilding Highway 90 and the bridges that were destroyed; 
on the short-term, what this Committee and what this Nation can 
do to help you provide some sort of ferry service across Bay 
St. Louis and across Biloxi Bay so we can reestablish some sort 
of normal link between Harrison County, Hancock County, and 
Jackson County.
    And the other thing that I would ask that you touch on is, 
again, what this Committee, what this Congress can do to 
improve the interoperability between the State Highway 
Department and the United States Department of Transportation. 
If there is anything that we have missed in order to help you 
do your job better in the wake of this tragic event, we 
certainly need to know about it and would welcome your 
thoughts.
    Mr. Petri. The next witness is Mr. Dick Hall, Central 
District Commissioner, Mississippi Department of 
Transportation. Sir?
    Mr. Hall. Thank you, Mr. Chairman, and thank you, 
Congressman Taylor for your remarks. I, too, am pleased to be 
here, to participate in these hearings regarding the 
transportation infrastructure and the damage caused to the 
State of Mississippi. Commissioner Brown, my colleague, has 
done a good job of providing you with a report of the damage 
done to Mississippi's highway system and the problems we have 
encountered about being reimbursed for repairs. I would like to 
briefly discuss where we need to go from here.
    First, allow me to point out that highways are not the only 
transportation infrastructure destroyed by Hurricane Katrina. 
Our ports and railroad were devastated, and the Gulfport-Biloxi 
International Airport was seriously damaged. Not only is the 
replacement of this infrastructure absolutely necessary, but 
how and with what it is replaced is of utmost concern.
    Within days of the passing of the storm, our Governor had 
the foresight to appoint a bipartisan commission to evaluate 
our losses and make recommendations for recovery. This 
commission, in consultation with engineers and architects from 
other states and other countries along with Local officials, 
compiled a preliminary list of what needs to be done to repair 
the damage done to our State. Included in this recovery list is 
transportation infrastructure which must be replaced.
    By the way, this commission is not a governmental agency; 
it is funded from private sources. This offers the advantage of 
not having to wait for legislative approval, which we 
discovered after Hurricane Camille can greatly slow down 
decisionmaking.
    At this point, allow me to emphasize we are not here to ask 
for vast amounts of money to build wild ideas pulled out of the 
air. We are here to discuss building what makes sense. No, it 
won't be exactly like what was there. A lot of what was there 
was obsolete and, in some cases, a danger to the public. Case 
in point, the CSX Railroad, this railroad runs basically 
parallel to the coastline, sometimes less than a quarter mile 
from the shoreline.
    There are approximately 160 at-grade crossings of this 
railroad between the Louisiana and Alabama state lines. One 
hundred ten I understand are in Harrison County alone, and that 
is the county where Biloxi and Gulfport are located. Obviously, 
this is a very dangerous situation which results in fatalities 
annually. You, the U.S. Congress, have already invested $4 
million to begin the process of relocating this railroad.
    Some people think this is a no-brainer. The present 
location of the railroad provided one unanticipated function 
when it served as a levee against the tidal surge of Hurricane 
Katrina. This is obvious when one observes the complete 
destruction south of the railroad.
    This is one of the reasons the Governor's Commission for 
Recovery, Rebuilding, and Renewal has recommended the height of 
the levee be raised and the existing right of way where the 
railroad now is be used for an east-west thoroughfare which is 
desperately needed. This could also accommodate a bus rapid 
transit or a light rail.
    Allow me to repeat. This is not some wild idea. It is an 
example of rebuilding with vision and common sense.
    Additional reconstruction and improvements recommended 
include: Planning for enhanced multi-modal access and 
interconnectivity among rail, truck, air, and seaports for 
expansion and long-term growth. Consider port expansions to 
include inland ports, inland terminals, or distribution centers 
that are not located on a water channel. The damage, the great 
damage done to the ports, along with everything done there, was 
this 30 foot surge of water.
    So some think that it may make sense to put warehousing and 
some other things that are part of a port system inland. Plan 
for public transportation for citizens who need it most: the 
elderly, poor, and handicapped. Evaluate public transit or 
trolley on the beach.
    Now, I didn't say build it; I said, it says evaluate it. I 
don't know if it is a good idea or not. Provide cruise ship 
port accessibility. And calm the Highway 90 traffic which is a 
very dangerous situation and convert it to a parkway boulevard 
section. All of these deserve consideration.
    True, we don't have the money to do any of them, but as Jim 
Barksdale, Chairman of the Governor's Commission recently 
stated, it is the worst possible time, but the opportunity 
makes it the best possible time.
    I would like to take just a minute or two on the subject of 
transit. I did not have prepared remarks because I just now got 
the information, but I would like to share it quickly with you. 
We had 50 vehicles submerged in saltwater; about half of them 
are now running. These are our bus, vehicle and vans transit 
systems along the Coast of Southern Mississippi.
    FEMA has assigned MDOT a mission assignment to serve the 
six southernmost counties for 60 days. FEMA will pay 100 
percent of the costs for 60 days.
    There are two problems. These vehicles will be replaced in 
kind, I am told, and that means if a vehicle has 100,000 miles 
on it, it will be replaced with a vehicle which has 100,000 
miles. That is not much improvement. The biggest problem we are 
going to have is what happens at the end of 60 days.
    We are told that a local match will then be required. The 
three coastal counties of Hancock, Harrison, and Jackson have 
estimated they have lost half of their tax base. There is no 
way they are going to be able to meet this match requirement. 
And remember, this is transportation which serves a lot of 
people who have no other options.
    Congressman Taylor mentioned a ferry. That is being 
discussed. One of the problems there, as I understand, we are 
talking about the ferry crossing is not deep enough to have a 
vehicle ferry. So if that is the case, there is even more need 
for public transportation to get to the ferry and on the other 
side. So that is just another issue to discuss and decide.
    Again, I will yield to the next gentleman, and I will 
answer any questions you have at the appropriate time. Thank 
you.
    Mr. Petri. Thank you. And next we have Mr. Don Vaughn, 
Chief Engineer of the Alabama Department of Transportation. Mr. 
Vaughn?
    Mr. Vaughn. Thank you, Mr. Chairman and members of the 
Committee on behalf of Governor Riley and the entire State of 
Alabama.
    Mr. Petri. I am sorry. I apologize. I meant to yield to my 
colleague who arrived in a timely fashion, Spencer Bachus, who 
is a very active member of the Congress and of this Committee.
    Mr. Bachus. Thank you, Mr. Chairman. Actually, Mr. Vaughn 
was doing a really good job on his opening statement. I kind of 
hate to interrupt.
    I do want to introduce him because he is a friend of mine, 
and he is a very capable public servant, and I would like to 
give the Committee a little insight into who Don Vaughn is. He 
is a guy that has really come up through the ranks.
    He began working for the Alabama Highway Department in 1966 
in a statewide local survey party, and this was as a teenager, 
and he continued to work on that survey party and go to Auburn 
co-oping; going to Auburn, then working, and going back to 
Auburn. So he worked for the State Highway Department while he 
was still at Auburn.
    He graduated in 1972 with a degree in Civil Engineering, 
and he, at that time, became full-time with the Alabama Highway 
Department in the Engineering Education Training Program and as 
a graduate Civil Engineer.
    Over the next 32 years, Mr. Vaughn has held a number of 
engineering positions in the department. He has been the 
Administrative Engineer to the Transportation Director, the 
Assistant Transportation Director, and the Assistant Chief 
Engineer.
    Then in February of 2003, he was appointed not only Chief 
Engineer, which he is, but also Deputy Director of Operations 
for the Highway Department. As many of you who go through 
Alabama may know, we have some of the finest highways in the 
Country, some of the best constructed highways, and I credit 
our speaker today with a lot of that. Thank you.
    Mr. Vaughn. Thank you, Congressman Bachus. I was hoping you 
wouldn't mention Auburn sitting here at the table with LSU 
since they whipped us the other week.
    [Laughter]
    Mr. Bachus. I am not going to mention the field goal 
misses, that is for sure.
    Mr. Vaughn. Right, right.
    [Laughter.]
    Mr. Vaughn. As I was saying, on behalf of Governor Riley 
and the entire State of Alabama, we very much appreciate the 
opportunity to come up here before members of this Committee. 
My trip up here today was a little easier; I flew up on a Delta 
jet. And I know when you came to visit us in Mobile, you flew 
in on a helicopter with the doors open, and I know that was 
exciting in itself.
    Hurricane Katrina was the third major storm along with Ivan 
and Dennis to directly impact Alabama in less than a year. 
Damage to our system was not nearly as severe as the damage to 
Louisiana and Mississippi, but there were a number of 
infrastructure challenges that presented themselves. Even 
though we have previously experienced several large hurricanes 
over the years, having three major hurricanes in such a short 
period of time focused attention on those operational areas 
that worked well and those that did not.
    First, I would like to recognize the Federal Highway 
Administration for their support. Key personnel from Federal 
Highway Administration were present with Alabama DOT personnel 
at each meeting prior to, during, and following the storm. 
Questions on eligibility of emergency relief, project scopes, 
limits, methods of contract award, and the like were quickly 
answered which helped to eliminate delays and move recovery 
efforts along.
    This level of participation import was not unusual. It was 
representative of Federal Highway Administration's response 
that we have come to expect during both disaster and non-
disaster periods.
    Routes that are within the range of tidal surges are 
susceptible to be damaged in a variety of ways. Layers of sand 
up to three or four feet thick are often deposited on roadways. 
Shoulders are often scoured or eroded during a storm or 
immediately afterwards when the water recedes to its source. 
Sections of roadway near bridges and culverts are especially 
susceptible to these breaches. Some of these breached sections 
can be several miles long.
    Timely post-storm damage assessments and responses are made 
more difficult by these forms of damage. During Hurricane 
Katrina, a number of coastal routes were damaged in the ways 
that I have just mentioned.
    The majority of our repair work was accomplished by a 
combination of State forces and contract forces paid on force 
account basis. We have been very successful in identifying and 
making damage assessments. Our damage, as I said, was not 
nearly as severe as Mississippi and Louisiana. Our emergency 
relief request totaled a little in excess of $18 million, and 
we have a little more than half of that already authorized by 
Federal Highway Administration.
    One major issue we faced, the major east-west artery across 
our region of the United States is handled by Interstate 
Highway 10 and U.S. 90. All of these routes cross the Mobile 
River at Mobile. Two of the crossings are tunnels. One of the 
crossings is a major cable-stayed bridge.
    During Hurricane Katrina, we were in danger of losing all 
three arteries. The Bankhead Tunnel, which was the original 
crossing, is at elevation approximately five, and we have to 
close that in anticipation of a storm surge. So it was not 
available to carry traffic.
    The Cochrane Bridge, which was a cable-stayed bridge north 
of Interstate 10, was hit by an oil rig that had broken loose 
from dry dock and managed to hang up on the bridge, and we had 
to close the Cochrane-Africatown Bridge. The tunnel along 
Interstate 10, because of pump failures, was in danger of 
flooding.
    Had we lost those arteries, and this was an event, a 
happening that we had not anticipated in any of our scenarios, 
east and west would have been severed at Mobile. This would 
have hampered not only evacuation but the recovery and relief 
efforts following the storm.
    So one of our greatest needs in Alabama is a new structure 
bridge crossing the Mobile River at Mobile. Our current 
estimates of that bridge are in the neighborhood of $660 
million which is more than we can handle in our normal funding 
cycle.
    One thing that we did to help during and before the storm, 
Governor Riley issued a waiver of enforcement laws that allowed 
overweight, oversized, and mobile homes to move through the 
State. This was something that assisted us in the recovery 
effort. It assisted relief and recovery, not only in Alabama 
but to Mississippi and Louisiana as well. It is important to 
note that these vehicles were not allowed to move completely 
unencumbered across the States. There were routing maps 
attached to the resolution which ensured safety during this 
period.
    A shortage of fuel was another issue that we had not 
anticipated before, and loss of communications. So we are in 
the process of upgrading our communications system.
    Gentlemen, that concludes my oral summary. Again, I thank 
the Subcommittee for allowing me and others to appear before 
you to offer information concerning the devastating effects of 
Hurricane Katrina. Thank you.
    Mr. Petri. Thank you, Mr. Vaughn. Next, Mr. William 
Deville, New Orleans Regional Transit Administration. Sir, we 
look forward to your testimony.
    Mr. Deville. Thank you. Mr. Chairman, members of the 
Subcommittee, thank you for the opportunity to appear before 
you today.
    The New Orleans Regional Transit Authority, a political 
subdivision of the State of Louisiana, was a mid-sized transit 
system employing nearly 1,300 people. We operated with 372 
buses, 66 streetcars, and over 80 para-transit vehicles. The 
RTA averaged 124,000 riders per day on its 46 buses and 3 
streetcar routes. Of the 855,000 people we carried weekly, over 
20 percent were considered transit-dependent.
    On Friday, August 26th, Hurricane Katrina's projected path 
abruptly changed towards the Louisiana/Mississippi border. The 
next morning RTA staff reported to the City of New Orleans 
officials that it was prepared to carry out the City's 
hurricane plan. The RTA, as part of its own hurricane planning, 
fueled up nearly half of its fleet based at its East New 
Orleans facility, and moved those buses not providing regular 
service to higher ground on a wharf near downtown New Orleans.
    On Sunday morning, August 28th, per the City's plan and 
request, the RTA began running special service from 12 sites 
across the City to take riders to the Superdome, the shelter of 
last resort. In addition, the RTA also ran at least 10 para-
transit vehicles to the Superdome and then on to the Baton 
Rouge area for special needs citizens.
    On Monday night, August 29th, when it appeared Katrina had 
finally passed, the water continued to rise up around the RTA 
Canal Street facility, trapping nearly 250 people. When the 
backup generators failed, it became quite apparent that it 
would be necessary to evacuate the building.
    Using air mattresses and wading through unspeakable water, 
the group fled the building and found higher ground on an 
overpass. The next day, an employee was able to locate a small 
boat to evacuate the last of the stranded as well. Then came 
the difficult and heartbreaking trip out of town to evacuation 
centers.
    Most of the RTA employees that served the City just hours 
before, evacuating those in need, themselves ended up in 
shelters in Baton Rouge and Baker, Louisiana, where many of 
them are still located today. Within days of the hurricane, key 
RTA staff set up temporary headquarters in Baton Rouge at the 
offices of the Capital Area Transit System. From there, the RTA 
executive staff with the cooperation of CATS, FTA, FEMA, and 
State officials proceeded to plan for the immediate future. 
Particularly, I thank Bob Patrick, the FTA Regional 
Administrator and his staff for their early assistance.
    At my direction, we have begun to rebuild our transit 
system for the new New Orleans. I have reached out to the 
transit industry and have established a strike force team to 
assess the damage to our facilities and buses and prepare an 
action for the phased rebuilding of our transit service and 
organization. The Federal Transit Administration has already 
begun review of the situation, prerequisite to the flow of 
funds that have been made available to support this effort.
    Our plans for the immediate future are fundamental: 
restoration of service for our customers, reemployment of our 
staff, and the rebuild of our organization. Our first goal, 
which I am happy to say is well underway, is the return of 
service for as many of our operable buses as possible as we 
repopulate our metropolitan region. Thanks to the emergency 
transportation contract through FEMA and FTA, the RTA has 
partially restored 13 of its bus lines to service in New 
Orleans; more are planned.
    Key to RTA's recovery will be the return and stabilization 
of our revenue base. Our operating budget is principally funded 
through three sources: fare box, penny sales tax, and New 
Orleans hotel-motel tax. Obviously, all three are lost for the 
moment, particularly at the levels needed to sustain our 
organization. As mentioned, we are presently operating FEMA-
sponsored service, and until tax revenue is restored, we will 
not be able to generate our normal income.
    A good part of our streetcar infrastructure has been 
damaged including 30 streetcars which sustained serious water 
damage. Damage to the St. Charles line was minimal other than 
the overhead catenary lines. The new Canal Street line was 
under water and has sustained heavy damage. We estimate that we 
have lost as many as 200 transit buses to the storm. There are 
five RTA facilities, and with the exception of the Carrollton 
barn, four sustained extensive damage.
    The lack of damage to the Carrollton barn was very 
fortunate. That is the site of the construction of the canal 
streetcars, and we plan to rehabilitate those damaged canal 
streetcars at Carrollton. It is also the storage facility of 
the irreplaceable St. Charles streetcars, all of which remain 
operable.
    We also plan to get the Riverfront line back in operation 
soon, using St. Charles streetcars. Our headquarters at Plaza 
Drive appears to be a total loss. Our plans are to return to 
New Orleans as soon as possible to a temporary office until we 
can establish permanent headquarters at our Canal Street 
facility.
    I thank the EPA for performing the cleanup of water damage 
at the Canal Street facility. The RTA looks forward to working 
with Federal, State, and Local officials to plan a better and 
exciting new New Orleans as envisioned and promised by those 
officials.
    I would like to thank you, Mr. Chairman, and all of the 
members of the Committee for giving us the opportunity to 
update you on our progress in bringing transit services back to 
the New Orleans Metropolitan Area. I will be happy to answer 
questions at the appropriate time. Thank you very much.
    Mr. Petri. Thank you, and we will be turning to questions 
after we hear from Mr. Dwight Brashear, Chief Executive Officer 
of the Capital Area Baton Rouge Transit System. Sir?
    Mr. Brashear. Thank you, Mr. Chairman.
    The late Dr. Martin Luther King once said that history is 
the long and sometimes tragic story of the facts. And I think 
it is an opportunity like this that allows us to snatch that 
statement out of midair and change it around so that we can say 
that history is the long and sometimes triumphant story of the 
facts.
    Mr. Chairman, members of the Subcommittee, and guests, 
thank you for this opportunity to testify before you today on 
behalf of the Capital Area Transit System of Baton Rouge, 
Louisiana. I am honored that you have requested me here today 
to discuss the valuable part mass transit has performed during 
Hurricane Katrina and as it continues to aid in the devastation 
and aftermath of this cataclysm.
    First, let me say I bring greetings from Baton Rouge Mayor-
President Melvin Kip Holden and Louisiana Governor Kathleen 
Blanco. Both were pivotal in our ability to maximize efforts in 
providing essential emergency services.
    I must also recognize the contributions of FEMA, the FTA, 
and Secretary Bradbery's group over at the LADOTD for providing 
policy direction and technical assistance. Lastly, I would like 
to express the gratitude of all of the people along the Gulf 
Coast for the help that this great Nation has given from you, 
the elected officials, to the many people and organizations 
from every State in this Nation.
    I myself am a witness to the resolve, and resourcefulness, 
and the commitment of people extending a hand and opening their 
hearts to millions of hurting displaced families, many of which 
have lost everything. I say to you today, we must continue to 
meet the short-term emergency needs, and we must commit 
ourselves to the long-term rebuilding and resettlement needs of 
our fellow sisters and brothers.
    Transit in Baton Rouge, pre-Katrina, we had our eyes on a 
major public involvement process to put a referendum before the 
voters of East Baton Rouge Parish to expand transit service and 
to develop transit infrastructure for bus rapid transit. We had 
a fair amount of traffic congestion and associated 
infrastructure issues as well. Baton Rouge was a capital city 
of approximately 400,000 population with an estimated urbanized 
area of some 600,000. It was a city excited about transit 
innovation and growth potential.
    Hurricane Katrina hit the Gulf Coast on August 29th, 2005. 
I simply describe it as shock and awe of Biblical proportion. A 
critical crisis situation happened overnight. Within 24 hours, 
approximately 400,000 of New Orleans 1.3 million population 
were moved to Baton Rouge. The road infrastructure was over-
capacitated. A 20 minute peak period commute went to almost 2 
hours.
    The transit system was overwhelmed. Buses simply had to 
pass people up along transit routes due to passenger loads. 
Food, water, gas, utilities, and medical became critical 
supplies. A logistics nightmare ensued for moving anything. 
Support and coordination efforts of Federal, State, and Local 
entities were pushed and stressed beyond endurance limits.
    The physical destruction of property was beyond 
comprehension. Well over 80 percent of New Orleans was under 
water.
    However, we persevered and moved to hurricane triage stage. 
FEMA, FTA, the military, State and Local agencies such as CATS 
and the New Orleans Regional Transit System began to provide 
emergency services. At one point, I was tapped by our Governor 
to assist with the coordination of evacuation transportation. 
School buses, transit buses, and inner city coaches from around 
the Country came to our aid.
    CATS, NORTA, FEMA, FTA, the MPO, and State and Local 
Governments worked for 14 hours a day from September 8th 
through the 19th to develop an emergency Baton Rouge/New 
Orleans Project Proposal. FEMA and the FTA responded with a $47 
million contract on October 1st, 2005. This is probably the 
largest FEMA award to a mass transit property in history.
    Today, CATS and NORTA, we work side by side in our City 
providing emergency mass transit services to displaced 
hurricane victims and also providing transportation options to 
gridlock and traffic congestion. NORTA is operating emergency 
fixed route local and ADA para-transit service in Baton Rouge. 
We will shortly begin operation of a Park-N-Ride express 
service with an innovative buses only on shoulder program. The 
FEMA/FTA project has allowed NORTA to begin calling back some 
of their 1,350 displaced employees. NORTA has also begun to 
start up service in New Orleans.
    This is a transit success story because the partners 
persevered and championed the mission. It required real change 
in State and Local policies and procedures, real change in 
coordination, and internal operations of both my organization 
and NORTA. It has required help from sister agencies relative 
to equipment. It has required the replacement of fear with 
endless possibilities and boundless opportunity.
    Mr. Chairman, I thank you for allowing me to tell you that 
mass transit is working and working well. I pray that God will 
continue to bless this Nation and bless this Government. Thank 
you.
    Mr. Petri. Thank you all.
    Let us turn to questions. Mr. DeFazio has joined us and had 
a very bad day. He is going to have Mr. Taylor lead off on his 
side. I think I will defer to Mr. Bachus from ours if you care 
to.
    Mr. Bachus. Thank you. My first question or comment will be 
to Mr. Brown. As we flew over Mississippi, we did see where 
that rail, main line CSX track was pretty much torn up for many 
miles, and I am aware that you all have been trying to move and 
relocate that rail line which you mentioned in your statement. 
Have you been having success with Federal officials in 
basically the relocation you propose?
    Mr. Brown. Well, the study has been ongoing. And yes, they 
have been very cooperative in the relocation of that rail line. 
Yes.
    Mr. Bachus. How about the Mississippi Export Railroad, was 
it damaged?
    Mr. Brown. They had some damage at Pascagoula-Moss Point, 
but no real heavy damage.
    Mr. Bachus. Okay.
    Mr. Brown. And, of course, they would be able to feed into 
that area with the CSX relocated.
    Mr. Bachus. Okay. Any other members that wish to comment on 
that?
    Mr. Higgins. Yes, I mentioned that.
    Mr. Bachus. That is right. You also mentioned it.
    Mr. Higgins. I mentioned that you guys have already 
appropriated $4 million to pursue the study of that and the 
feasibility of it.
    Mr. Bachus. Yes, I would just hate for us to rebuild it 
right where it is when the long-term plan is to move it.
    Mr. Higgins. Amen.
    Mr. Bachus. Mr. Vaughn?
    Mr. Vaughn. Some of that would involve Alabama, and Alabama 
is cooperating with Mississippi in that effort as well.
    Mr. Bachus. We have an opportunity. I mean it is destroyed. 
It has to be moved back, but if you can also move it back and 
utilize the old road bed for a dike.
    Mr. Brown. I will point out that they are having to rebuild 
across the Pascagoula River Basin because when Katrina came in, 
they had a train parked in Gautier. So they are having to 
rebuild to bring that train back out of there, and they do have 
one customer there, the--
    Mr. Bachus. And I think that could either be a spur or 
secondary track later.
    Mr. Brown. Yes, yes.
    Mr. Bachus. Not built back.
    Mr. Brown. And it was not a difficult bridge to build back. 
It wasn't a span or anything, steel span; it was a wood span.
    Mr. Bachus. I am going to ask another question of Mr. 
Vaughn.
    Before I do, Mr. Chairman, I would like to introduce a 
letter that I wrote October 21st to Mr. Ken Burris who is the 
Acting Chief of Operations of FEMA, and this deals with the 
relocation of The Holiday, our cruise ship. There were two 
cruise ships at New Orleans, and they were originally to be 
redeployed to Mobile. That is what we were told by Carnival 
officials within a day or two of the hurricane.
    Then two days later, FEMA actually told us that not only 
would that not happen but that the cruise ship that was located 
in Mobile, which is a mainstay of our economy, would be used to 
house refugees from the storm, or evacuees. The cost of that 
ship is $1,300 per occupant if they filled it up, and it is 
about half full where the average cost of a cruise is half 
that. So they paid twice what it cost.
    If they filled that ship up and sent it out on a cruise, 
they would have made half the money they contracted for. They 
never notified anybody in Mobile they were taking it. The 
University of Alabama has just done a study that says that is 
going to negatively impact Mobile's economy by $12 million a 
year annually, and it has already run for four or five months.
    I and other members of the Alabama delegation keep writing 
FEMA, asking them to reconsider this, and as of yet, although 
we were promised in a hearing before this Committee on October 
6th we would receive an answer, we have not. We have a parking 
deck that is $4,000 a day we are losing money on in Mobile.
    So think how ironic it is that a hurricane hits Mobile 
County, that was the county that suffered the damage, and 
within four days FEMA comes in and takes away our cruise ship 
which is our number one source of revenue to the City, which is 
absolutely absurd. And yet, they did that without consulting 
with anybody in Mobile and not only that, they paid an 
exorbitant price to do it. Then they will not respond to our 
inquiries asking for reconsideration.
    Having said that, Mr. Vaughn, you have had to deal with 
three hurricanes: Ivan, Dennis, and now Katrina. In working 
with the Federal Highway Administration's Emergency Relief 
Program and FEMA's Emergency Assistant Program, what challenges 
has the State of Alabama had with using both these programs to 
address road and bridge damage caused by the storms?
    Mr. Vaughn. Congressman, I think our biggest challenge is 
the misunderstanding of the roles that Federal Highway's ER 
program and FEMA's relief program have when it comes to debris 
removal. The DOT with Federal Highway Administration ER money 
will go through and make a first pass following a storm, and 
clear the road for traffic, and then remove the storm debris 
from the right of way with ER participation. Following that, 
what we get into is adjoining landowners will bring their 
debris to the State right of way which is eligible for FEMA 
funding.
    The landowners don't understand, and the Local Governments 
don't understand the difference, and we start getting calls 
about the DOT failing to remove the debris from the State 
highway. We have recognized this. It is something that has 
occurred in every storm, and we have recognized this. We are 
working with our local EMA, FEMA, and Federal Highway 
Administration, and we are going around developing an 
educational seminar, if you will, to try to explain the 
differences between these two programs.
    Mr. Bachus. All right. Thank you.
    Mr. Petri. Thank you. Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman. Again, I want to thank 
all of our participants for being here. I am going to limit my 
remarks just to the guys from Mississippi. A couple things, in 
looking at the short range efforts to get some sort of traffic 
across Bay St. Louis and Biloxi Bay, as someone who lives in 
Bay St. Louis and spends a lot of time on the bay, Mr. Hall, I 
am very aware that it is a very shallow body of water, and that 
is going to complicate things.
    But there are assets out there such as the Navy 
Construction Battalion, such as an outfit in Poplarville that 
actually makes dredges. The Corps of Engineers could provide 
dredging for the parts that are necessary. So again, I think it 
is great that you have plans on from the day you let the 
contract to the day we cut the ribbon on the bridge, that it is 
18 months. It is still going to be months before you let the 
contracts. So we are looking for those folks, which is a lot of 
people, at a two year delay.
    I would really encourage you, and particularly since I 
think our Nation is going to end up paying for this, and it is 
not going to come out of the State's budget, to do everything 
possible to provide some sort of ferry service. And include, 
amongst your options, looking at some form of rail transport of 
getting those cars across the bays because I spoke with the CSX 
folks yesterday.
    They are expecting the Bay St. Louis Bridge to be completed 
in less than six months. They are a bit luckier in that all 
they have to do is pick up the pieces of the old bridge and 
spot them back in place, rather than the undertaking that you 
have which is to replace the bridges. So I would really ask 
that you consider that for the sake of the folks who live down 
there.
    The second thing is this Committee was good enough to pass 
under the 109th Congress Public Law 109-59 Section 1805, which 
requires that when a bridge is destroyed and removed, that we 
do something good with it. In Coastal Mississippi, doing 
something good with it means either building a barrier to 
protect our islands, building a barrier to break water for a 
harbor, or building a fishing reef with it, as Secretary Brown 
and your commission had been so helpful on when the Interstate 
Bridge over the Jordan River was replaced a couple years ago.
    We have two great opportunities to do a lot of good with 
what will be the debris of the Biloxi Bridge and the Bay St. 
Louis Bridge. I had a conversation with the head of our 
Department of Marine Resources, Dr. Bill Walker, last week. 
They have already signed on to be the local sponsor to pick the 
sites to take the responsibility for the debris.
    Once it is put overboard, it becomes their responsibility 
if there is any liability, and they are a very willing 
participant in this. Since I have two of my three commissioners 
here, I would really encourage you to do good things with that 
and seize this once in a lifetime opportunity. I hope those 
bridges aren't destroyed again in my lifetime.
    That is why I am saying, a once in a lifetime opportunity 
to do something good with that. And again, this is going to be 
paid for with Federal dollars. So as a Federal Congressman, I 
am going to ask that you all try to make that happen.
    The third thing is kind of parochial, but I do think 
important for the sake of future generations of Mississippi, 
and this falls in the very small request category. I would hope 
you would put a marker on Highway 603 at the high water mark 
where the waters of Katrina left that debris lying. I think 
future generations would be well served by knowing just how bad 
that storm was, just like I think my generation is well served 
by the great book written about the flood in Louisiana and 
Mississippi in 1927.
    Again, I am with you in the replacement of those bridges. I 
have had the opportunity to cruise Highway 90 a couple of times 
in the past couple of weeks. I want to compliment the crews 
that are out there trying to get it up and running.
    But I think it is also important to have people from 
Jackson County get to Harrison, and people from Harrison get to 
Hancock without having to jump up to the interstate because 
what used to be a 2 mile drive for people from Bay St. Louis to 
attend school in Pass Christian or the other way around is now 
more like a 20 mile drive. Given the fact that Cowan and 
Lorraine, Highway 49, and many of the other north-south roads 
have really become bottlenecks, anything that we can do to get 
Highway 90 up and running as quickly as possible would be 
important.
    The last thing I would ask, and I fully support your 
efforts to try do something with the CSX line, keeping in mind 
that even the folks from CSX are saying, if we could do this as 
quickly as possible, we are still looking at six years. 
Anything that is done along what was the CSX roadbed, if it is 
not limited entry, if you don't have some sort of interstate 
style limited entry, where you don't have a traffic light every 
block, if we don't have some sort of limited entry, you have 
accomplished absolutely nothing. If all we do is build an 
overpass road at great expense of moving that railroad and 
building another road, we really have accomplished nothing for 
the citizens.
    So I would encourage you up front, before anything else 
happens, to get a commitment from each of the cities, and that 
means Biloxi, Gulfport, Long Beach, and Pass Christian. Get a 
commitment from them up front that they will be willing to live 
with the political heat that would come from making that 
limited entry because in your testimony you mentioned the 100 
plus rail crossings.
    We have not seen the local community step forward to even 
stop rail crossings, which is just for one customer. So if they 
are not going to be willing to step forward and limit rail 
crossings, it is really important that they be willing to step 
forward and limit the north-south crossings there would be to 
this future road. Again, if you don't do that, we really 
haven't accomplished much. But I would like to hear your 
thoughts on that.
    Mr. Brown. Congressman, number one, I am 100 percent in 
favor of that. You could accomplish what Commissioner Hall 
spoke of. You can also make a higher levee and keep the ocean 
from washing in.
    Mr. Taylor. That would be great.
    Mr. Brown. I think you are absolutely right, and then that 
would allow us to do some really, really nice things on U.S. 
90. In other words, as Mr. Hall said, you could calm it; you 
could make it a parkway; you could make it something attractive 
and attract people to the Coast.
    But you would have a people mover in the old CSX line and 
probably to have to elevated, to build it to interstate 
quality, and limited access is a way to do it. I would like to 
see some type of transit included in that. I think it is 
important. Transit is hard to get going, but we need more 
transit on the Coast.
    I really like your idea of the marker. Let me back up to 
that. I think I can guarantee that will be done. On the rubble, 
we have provisions in the contracts on U.S. 90 to put to use 
the rubble or to make it available, not necessarily use it. But 
we run into some things, some obstructions. We won't clean with 
steel protruding. I think there is a piece of steel protruding 
from every piece of that rubble.
    Mr. Taylor. If I may, Commissioner Brown?
    Mr. Brown. Sure.
    Mr. Taylor. If you take the time to look at the success 
story that you already have which was the key at Telegraph, at 
Square Handkerchief.
    Mr. Brown. Yes.
    Mr. Taylor. There was some steel protruding. What the 
contractor did was for the visible steel, he went there with 
something as simple as a settling torch and cut that off. Below 
the water line, there is a lot of steel which actually became 
the first safe haven for the fish and the first oysters, clams, 
algae; it actually attached to the steel before it attached to 
the concrete. And then what happens is because it is steel and 
because it is salt water, over time that stuff is going to go 
away anyway, but it isn't the eyesore, and really we have not 
had any complaints from the way that was done which still left 
the steel on it.
    Mr. Brown. It would be a shame if we did not use that 
rubble to improve our fisheries in our Mississippi Gulf Coast, 
and we, the Commission, are going to do what we can to make 
that happen.
    Mr. Taylor. Great.
    Mr. Brown. And the ferry, we are working with. FEMA is now 
in the lead on that. We were working with Federal Highway, but 
FEMA came in, and they are in the lead on the ferry, and they 
are working with our Public Transit Division and Maritime.
    Mr. Taylor. Again, just to throw out the rail idea, I know 
that Amtrak at one time had passenger trains that touted that 
you could bring your car along. Now, I know that was a long 
haul, say from New York or Washington down to Florida, but 
somebody out there has got to have a mechanism for a quick way 
to get cars onto a flat car and get them off again on the other 
side.
    Again, Mr. Hall correctly pointed out that putting a ferry 
across Bay St. Louis is not a simple task, but this at least 
gives you another option to look at, and I have to believe that 
somebody in the world is already doing that.
    Mr. Brown. I would like clarification. It is my 
understanding that after the 180 days or some period, that 
somebody is going to pick up 20 percent of the cost of that 
ferry.
    Mr. Taylor. Well, as you know Governor Barbour is up here. 
We have the great fortune of having two very senior Senators, 
including the Chairman of the Senate Appropriations Committee. 
If that is the only hindrance, please let them know about that. 
I think that can get fixed.
    Mr. Brown. Thank you very much.
    Mr. Taylor. Thank you very much.
    Mr. Hall. Mr. Chairman, may I make a remark or two in 
response to Congressman Taylor, and I will try not to say the 
same things that my colleague did. One I will mention is I 
think I agree with him that Highway 603 high water mark is a 
very good idea, and I am sure we will do that.
    You mentioned repairs on Highway 90. We awarded how many 
contracts Tuesday? Three. Three contracts at our Commission 
meeting last Tuesday, so they will be underway immediately. 
There won't be any more delay getting that started.
    You mentioned the limited access on that CSX right of way. 
Absolutely, and it won't be easy politically, but there is no 
reason to do it if we don't do that. I mean the whole point is 
to do away with these 100 plus at-grade crossings. If someone 
had the suggestion that you make it, or they had the idea of 
something like St. Charles in New Orleans, have the highways 
and the trolley.
    All that is a possibility, and that is still yet to be 
determined. But I agree with you. Certainly, we have to do it 
in a way that does away with the at-grade crossings.
    And the ferry, we will continue to pursue that. It reminds 
me that I can understand. I am an old Coast Guard guy. You were 
in the Coast Guard, weren't you, if I remember correctly? Thank 
you, Mr. Chairman.
    Mr. Petri. Thank you.
    I wonder if I could ask all of the panelists, the last 
panel represented the Federal Transit Administration, I think, 
and FEMA discussing this aspect of reconstruction with 
Transportation and Infrastructure. If you could, sort of in a 
positive way if possible, there was some controversy because of 
what happened in New Orleans with the double blow and finger-
pointing.
    My own personal view is that we want to get the job done, 
and then we can go back and figure out what worked and what 
didn't work and how to do better next time, but to try to put 
all of this in a positive context.
    Are there things that we can do right now? Are there areas 
where improvement, or support, or communications between 
Federal and State could be improved? You have alluded to sort 
of getting some better framework for the flow of funds or 
commitments so that you can proceed. It is pretty clear that 
you are going to have enough real world delays. They have 
responsibilities to be good stewards, and to make sure things 
are well thought out, and that there is not unnecessary waste.
    But on the other hand, we want to get this economy up and 
moving, and people paying taxes and paying their bills, and 
earning something, and taking care of their families as quickly 
as possible down there. A lot has to be done in terms of 
infrastructure for that to really happen.
    So if you could comment on any things, concerns you have, 
or things we might highlight, or things we might do at the 
Federal level to make sure that we are supporting your efforts. 
You are on the front line. I appreciate hearing of it.
    Mr. Bradbery. Mr. Chairman, on behalf of Louisiana, our 
situation with and our critical issue, around FEMA in 
particular, has to do with the timeliness of their 
reimbursements. We have had a very poor history with FEMA 
performance as relates to reimbursement. This year, I can't 
look at you and tell you that they are untimely yet.
    However, given the past track record, we are fairly leery. 
I can tell you that the process that we go through to prepare a 
project worksheet for FEMA is very arduous, very difficult, 
very complex. There are a lot of steps to it, and we better get 
it right the first time or it is coming back, and it goes 
through the cycle again and again.
    So my point is from Louisiana's perspective, we have a real 
cash flow problem. In the middle of next month, we are going to 
run out of money. If we don't get reimbursed on a timely basis 
on the money we are spending now by FEMA, it will be very 
serious in our State.
    So any encouragement, any process improvements we can 
recommend, and any sort of discussion with FEMA would benefit 
this whole thing. Again, we are about ready to turn in about 30 
to 35 PWs by the end of this week, and we are going to see very 
shortly what kind of response we get. But if it is not timely, 
we are going to be in a world of hurt.
    Mr. Petri. Can you flesh that out? What magnitude of money 
are you talking about, and what kind of things would happen if 
you didn't get it handled quickly? I mean even if there is a 
problem, if they work with you to solve the problem, that is 
one thing. If you get bureaucratic runaround and delays, that 
is quite a different thing.
    Mr. Bradbery. All right. Well, we will take debris cleanup 
as an example. We are paying those invoices now. If we don't 
get that money back, we are taking money out of our trust fund, 
and come December, our operations budget is going to go 
negative on the cash flow side. We will have to consider taking 
money from the rest of our program and put Federal dollars at 
risk and the regular highway program at risk because we are not 
getting reimbursed fast enough. I don't know if that answered 
your question or not.
    But again, to me, it is a process thing with FEMA. It is 
how efficient they are. I mean we see cases to where in one 
week, they will have a person sitting at a desk to go through a 
process with you. In two weeks that same person is not there 
anymore, and you kind of have to go through the process again 
with another individual. It is sort of a learning curve issue.
    I like to use the analogy that when FEMA gets into an area, 
FEMA is almost us. They hire consultants. They hire people in 
and around the area and from other States to come in, and these 
people have to go home. They work just like the rest of us. 
When they do that, you bring somebody else in. It just, again, 
exacerbates the problem, and they have to go through a learning 
curve as well.
    So again, I think our issue with FEMA is process-driven. I 
hope that I can report back to you in a month or so and tell 
you that it is working fine, that we are getting timely 
reimbursement, but I can't say that at this moment. It is a 
critical issue for us.
    Mr. Brown. Mr. Chairman, we have had very little 
involvement with FEMA. I will say that three or four days after 
the hurricane passed, they were there with fuel. So I can put a 
feather in their cap for that, and they have been very helpful 
in providing fuel.
    But with Federal Highway and the ER funds, I would like to 
see more of the authority shift further down, that somebody on 
site be able to make decisions. As I stated earlier, when you 
are in the middle of Biloxi, and all of that is going on around 
you, you need somebody by your side there. Generally speaking, 
Federal Highway has been, but sometimes that answer has to come 
to Washington or something, and there is a delay in it.
    We would like more authority right there on the ground so 
that we can make decisions at the time that they need to be 
made. For the most part, it has worked very well, but we have 
had some stutter steps in that process.
    Mr. Petri. Anyone else? Mr. Hall?
    Mr. Hall. I agree with what Director Bradbery touched on 
and Commissioner Brown both, the cash flow situation. Get the 
money moving. We are spending money we don't have, and we are 
just exactly what Director Bradbery said. We are at a point 
where we have to start making decisions. Do we start a job down 
in Tupelo or somewhere else, or spend the money on the Coast 
which doesn't leave us a lot of options? So whatever can be 
done to make that happen.
    And one other thing, and I don't need to get into this with 
a lot depth and don't intend to, but the possibility of 
expediting some environmental resolution. In other words, when 
those bridges were built, Congressman Taylor, they were built a 
long time ago and put in that particular place. Well, that 
might not be the best place for them right now. Maybe we ought 
to move them over here, or move them over there, or budge it a 
little bit.
    But then somebody says, oh, it will take us five years to 
go through the environmental process to do that. Well, that is 
not acceptable. If there is a better place to put it, we need 
to put it where it needs to go, the best place, and we need to 
be able to somehow expedite that.
    I always use the example that the last runway they paved at 
Atlanta Airport took APAC Construction 30 days to pave it, took 
14 years to permit it. We are not in a position that we can do 
that. We have got to get stuff built. So we have the pressure 
of, well, do you go in there and build it just right where it 
is because that is the quickest thing to do, or do you build it 
where it ought to be?
    Mr. Vaughn. Mr. Chairman, our involvement with FEMA at the 
Department of Transportation level is limited, but I can say 
that prior to the storm, FEMA was at the table. They helped 
with evacuation planning, evacuation decisions, preplanning of 
relief efforts, and I felt them to be a very, very good partner 
in our efforts. One thing we have identified post-storms this 
year is the ineligibility of reimbursement from the ER program 
for our evacuation efforts.
    The efforts to reverse lanes or contraflow on I-65 to help 
with the evacuation is an expensive undertaking. The Federal 
Highway Administration has recently issued a ruling that ER 
funds cannot be used to pay that because it occurred before the 
storm. So that might be an opportunity to look into to maybe 
provide some additional assistance to the States.
    Mr. Deville. Mr. Chairman and all the members of the 
Committee, I have six things that I can list right off the top 
that we would really appreciate if you would help us advance 
the cause here. First is temporary housing. We have lost over 
1,300 employees. Many, as I said earlier, were dispersed 
throughout the State and other areas of the county.
    In the process of reestablishing the Transit Authority in 
the City of New Orleans, thank God that FEMA, and FTA, and 
Congress are coming forth with funding, but due to time 
constraints and time lines, sometimes we lose that window of 
opportunity in getting people back. Some employees have their 
kids in school. Some have gotten FEMA grants in other places, 
and it becomes more of a challenge to get them back.
    But there are many, many willing to come back and want to 
come back, but there is no place to put them. So that impacts 
our attempt to be successful in moving things quickly, in terms 
of restoring the transit part as well as the City itself.
    Secondly, we have worked very hard. When this first 
happened, I got calls from the Federal Transit Administration 
as well as Mr. Jamison and others offering help and promising 
relief as soon as possible. And in that process, they wanted to 
know what the numbers were. So the numbers that were requested 
came at a time early on when we weren't even allowed to go back 
to New Orleans.
    So what we have done since then is we have gone back. We 
are there now, and we are refining our numbers, and we have 
good numbers. And the strike team that I told you about 
earlier, we are prepared to move quickly, but I would ask you 
to encourage those who are involved to get the numbers back to 
us that we worked so hard to provide and get together as well.
    Additionally, there is the 9/11 precedent in New York 
whereby investment grants were used, using FEMA funds that 
could be used for capital and operating. That would help us 
greatly because once the FEMA funds run out here in this 
contract, we are right back where we started.
    Additionally, waiving of match requirements is critical. We 
have no economy right now. So certainly, if we were to waive 
that match requirement, it would go a long way in helping us 
get started. The grant for FTA and DOT authority to enhance, as 
well as rebuild, is important so that we are not restricted in 
that regard. We have worked with the City, State, and Federal 
officials, APTA, and other transit associations trying to 
organize and formulate these strategies, and we certainly could 
use your help in moving them forward.
    Finally, holding harmless on formula funds due to a 
population effects for at least 24 months. I mean we have lost 
everybody practically, and so our formula funds are going to 
drop right off the table very, very soon. So if you could help 
us in that regard and at least extend it 24 months, that would 
go a long way in helping us in that area.
    Mr. Petri. Just before you respond, those bells mean that 
we have got a vote on the floor. We have been informed by 
BlackBerry it will probably be about 45 minutes worth of votes. 
We have about eight minutes or so before we have to run over. I 
thought we could hear Mr. Brashear and then if Mr. Boozman has 
some questions.
    Then if it conforms with your travel schedules, we would 
like to adjourn. Mr. Baker, a member of the Committee, can't be 
here until a bit later but will be back after the votes to ask 
some questions, particularly for the Louisiana people. Why 
don't you respond as succinctly as you can? And then, Mr. 
Boozman will have a chance to ask questions.
    Mr. Brashear. Thank you, Mr. Chairman. I, too, share 
Secretary Bradbery's concern relative to FEMA. My agency 
started to provide emergency services the Sunday before Katrina 
hit and continued up until recently. We have put in initial 
requests with FEMA.
    I have met with them on a number of occasions, and to my 
dismay found out that the vehicles that we were providing, they 
did not cover the cost of the fuel nor the wages to pay the 
drivers. So in a recent newspaper article, I was quoted as 
saying that I am draining the fuel out of all of my buses and 
won't provide a driver in the future.
    And I say that tongue in cheek, but there is a real serious 
situation going on relative to what is reimbursable. It is 
almost like walking through a maze. We give them our price; 
they counter. We give them another price; they counter.
    I think at some point, we are going to get to the point 
where we settle on what is reimbursable, and it has become very 
frustrating. So whatever assistance this Committee can be in 
helping us navigate that maze would certainly be appreciated.
    Mr. Boozman. Mr. Deville, in your testimony, you mentioned 
the strike force. Can you tell us what the makeup is of the 
strike force?
    Mr. Deville. Certainly. The strike force is made up of, it 
is really a public-private group encompassing the Local, City, 
Federal, and State key departments, as well as industry leaders 
who have experience in catastrophe recovery such as ACNTB, 
AUCOM, and others in that particular industry, and additionally 
the Regional Transit Authority employees that would compose 
that group of a strike team.
    Mr. Petri. Mr. Cummings?
    Mr. Cummings. Yes, Mr. Bradbery, I was reading somewhere in 
the New York Times that road crews were being dismissed, in 
other words laid off. Is that true?
    Mr. Bradbery. To my knowledge, I have not heard that, and 
as far as I am concerned, with respect to DOTD crews, it is not 
true.
    Mr. Cummings. Okay. When we were down there on the Gulf 
Coast a few weeks ago, I remember you were really very 
concerned about money running out. I guess it has gotten far 
worse now.
    Mr. Bradbery. Yes, sir, it has. Again, as I mentioned 
previously, from our perspective in Louisiana, we are going to 
go into negative cash flow in December, about the middle of 
December. And it is going to get critical for us if we don't 
get an influx of money in pretty quickly.
    Mr. Cummings. Well, we are running out of time, but I am 
hoping and praying that the Congress will do the right thing. 
There are many of us who really want to see the funds flow, and 
all of you have been very clear, all of you, about the use of 
Federal funds in an effective and efficient way.
    I am just praying that we can get through some of this, 
what we are going through, so that we can help people and get 
things on the right path. But I want to thank all of you for 
what you are doing. I know it is tough. It has got to be. I 
just want to say, thank you.
    Mr. Bradbery. Thank you, Mr. Cummings.
    Mr. Boozman. We are going to need to recess now. When we 
come back, let me give you a question you can think of, okay? 
In September, Congress passed an emergency supplemental 
appropriations bill providing $62 billion for Katrina-related 
relief activities. What we would like to talk about how much 
Federal funding your States received thus far for the repair 
and reconstruction of roads and bridges damaged by the 
hurricane.
    So again, let us pursue that in just a little bit.
    The hearing is recessed until 10 until 4:00.
    [Recess.]
    Mr. Petri. The Subcommittee will resume. I would first like 
to thank our panel for indulging us. The interruption was due 
to business on the floor of the House, a number of votes on 
important legislation.
    I would now like to recognize my colleague from Baton 
Rouge, Representative Baker, for questions.
    Mr. Baker. I thank the Chairman and certainly the members 
of the panel for your courtesy in extending your stay. I also 
appreciate the difficult task each of you have ahead of you, 
facing an inordinate amount of cataclysmic recovery. I was not 
able to participate in the hearing earlier, so I hope I do not 
plow new territory.
    Mr. Brashear, do you think that in the Baton Rouge area, 
with the 150,000 or 200,000 folks, we are not sure, that are 
now in the metropolitan area, that there are adequate resources 
to provide the types of transit services that will really 
facilitate enhancement in the traffic flows of the community? 
What is your outlook on, say, an 18 to 24 month picture of what 
our transportation plan looks like?
    Mr. Brashear. Thank you, Congressman. I think the quick 
answer is, no, there aren't adequate resources right now to 
address the increase in population, not only from a congestion 
standpoint but from a passenger load standpoint on our system.
    We are, in the short-term, seeking assistance from all over 
this great Nation of ours from transit properties, looking for 
assistance relative to equipment, and then, of course, working 
with Bill Deville and the folks over at the New Orleans 
Regional Transit authority, trying to get the personnel to 
drive those buses.
    So right now, we are struggling to meet the demand. I 
think, long-term, we have a goal--myself, Mr. Deville, and 
others--of creating a true regional transit system, tying the 
Crescent City into the capital city henceforth and forevermore. 
So we have a plan that we are working on, that we are 
developing. I think, ultimately, what you will see is a model 
system for the rest of this Country. So we are excited about 
the future.
    Mr. Baker. Thank you very much.
    Secretary Bradbery, one of the things that is of concern to 
me is, operationally, what is the effect on the agency, on your 
department, in the Orleans Metro Area with regard to employees 
that would normally be available to you to conduct simple 
maintenance activities? Where are we in relation to those 
concerns?
    Mr. Bradbery. Yes, we have about 200 workers, 200 people 
and their families that are affected by this storm, that don't 
have homes in that area. So it has put a strain on our work 
force there, trying to get them some place to stay.
    Mr. Baker. Excuse me. Are those 200 families and the 
respective employee reporting for work now, or are they just 
not available?
    Mr. Bradbery. No. We have about 135 reporting to work. In 
total, we have about 200 families that need to get some homes 
and need to get back on their feet. We are getting some help 
from the other districts in trying to make things happen there 
so we can keep our operations moving.
    It is a problem for us. We are working very closely right 
now with FEMA to try to get housing on DOTD property to house 
some of our people, and that has been a difficult task. We have 
been trying to do that now for the last six weeks. We are 
making some progress, but it is not as fast as I would like.
    Mr. Baker. To what extent are State transportation 
resources deployed to help with debris removal? Are you 
significantly engaged or partially? How does that work?
    Mr. Bradbery. Our initial effort is about over. We have 
turned it all over to the contractors.
    Mr. Baker. Okay, great. Is there any scope yet or estimate 
of what that total debris removal charge might look like?
    Mr. Bradbery. We are probably looking at a figure anywhere 
from $40 to $60 million.
    Mr. Baker. Are sites acquired for the disposition of that 
material?
    Mr. Bradbery. Well, DEQ is working with us there. We do 
have sites, and so that is being worked heavily. Yes, we do 
have sites. I can't tell you exactly where they are, but we do 
have some.
    Mr. Baker. One of the things you and I have talked about is 
the need for enhanced evacuation routes. We all know, 
regrettably, these events are going to reoccur. I believe in 
the plan you submitted for consideration, there were 
significant additional capacity projects to get people up north 
to Baton Rouge and then east-west.
    If I am understanding the earlier discussion properly, the 
earlier funds made available, the $60 billion plus by the 
Congress, those resources aren't available to the department 
for that type of work?
    Mr. Bradbery. They are not, the $62 billion. The Stafford 
Act fundamentally does not provide dollars to be put in FHWA 
relief fund. As it relates to Federal Highways, there is no 
money being deposited or directed to the emergency relief pot. 
So I must respectfully really say that Congress simply has not 
funneled the money in the proper pot.
    Mr. Baker. What has happened with gasoline tax receipts as 
a result of the effects of Katrina in the Orleans area? Has it 
had yet a measurable impact on your ability to conduct your 
business?
    Mr. Bradbery. At the last assessment we did, gasoline 
income was fundamentally flat. We anticipate a reduction, not 
only due to Katrina but to high gas prices. So we anticipate a 
hit and thus reduce revenues from gas taxes.
    Mr. Baker. Do you have in hand today a plan to facilitate 
the infrastructure problems in Baton Rouge, and what is the 
scope of that?
    Mr. Bradbery. We have been talking with the City of Baton 
Rouge. Very early on, we knew that we had a congestion problem, 
a severe congestion problem. We have got an infrastructure 
there that can handle 350,000 to 400,000 people; we now have 
about 700,000 people that we estimate. So we worked with them 
on their plan. The status of that is we have included in this 
package almost $1 billion to help relieve congestion and 
enhance commerce and evacuation routes in and around the Baton 
Rouge area.
    Mr. Baker. I don't know that it has been discussed. I am 
sure each State representative would go to their own delegation 
for their assistance. But it really might be quite helpful, 
given the magnitude of the problem, and there is Katrina-Rita 
fatigue and soon to be Wilma fatigue I bet up here, if we had 
some sort of regional transportation response to kind of help 
us all work together.
    Not knowing the conditions or the requirements in our 
neighboring States, I know you have them, I know it is 
important that the requests be storm-related and warranted, not 
necessarily just increasing capacity because there is an 
opportunity.
    But if we can work together as a Gulf Coast coalition and 
come up with a transportation plan that is a consolidated ask, 
I think our opportunities to get--I know the Chairman is 
favorably disposed, and I am speaking really to those not on 
Transportation who are ultimately going to have to vote on the 
floor and would probably be encouraged to see some sort of 
regional expression of cooperation in making that ask. 
Specifically, like on the Twin Spans and the interstate, we are 
all connected.
    It is essential for that interstate to function that it 
function across the entire South, not just through our own 
State. That is just one of the things that I wanted to suggest 
to the group.
    Mr. Chairman, I don't want to take extraordinary time, but 
I did feel it important to come and make that request to the 
Secretaries. If there is a way for us to get together, I think 
it would helpful for all of our respective interests. With 
that, I will yield back, unless somebody has a comment.
    Mr. Petri. Thank you. I suspect Mr. Bachus may have some 
additional questions.
    One area I was going to ask a question of, but maybe I can 
do it as a comment. There was talk earlier about difficulty in 
perhaps relocating some facilities to more desirable locations, 
and the need for environmental approvals, and how this might 
create a Catch 22 situation where you need to get the 
infrastructure in, but if you do it right, it is not going to 
be right for the long term; it is not going to be ideal. We 
have had hearings on this before.
    I believe that the Secretary of Transportation under the 
authority of the President working with States, there are a 
number of instances where they do give expedited environmental 
and other approval processes. It has been done in the case, 
maybe at the State level, but it was done with Federal 
cooperation after the earthquakes in California where they went 
ahead and redid the transportation infrastructure. Also, in the 
case of Salt Lake City preparing for the Olympics, they ended 
up getting together and expediting a lot of things.
    Mr. Baker. Mr. Chairman, on that point, I failed to raise 
it in my time and just to put an emphasis on it, Baton Rouge 
and the surrounding area is under significant ozone non-
attainment problems, and there is considerable question about 
our ability to construct new capacity projects unless we get 
some regulatory assistance. The Secretary may want to comment 
about that. But your observation about assistance with 
environmental constraints is hugely important to us.
    Mr. Petri. I can understand there is basic problem which 
many people have, which is how much you rebuild in the flood 
plain and how much you redeploy assets to try to make the 
situation as environmentally sensitive and as resistant to the 
future. Weather is weather, and the world is the world. We 
don't want to keep rebuilding infrastructure every couple of 
years if the weather is going to recur, which we have to expect 
it will. So let us adapt and build smart, but we are going to 
have to build.
    But leaving that aside, something is going to have to be 
built somewhere, and it needs to be done sooner rather than 
later. In that connection, certainly, this Committee would be 
eager to work with you on any effort that would be needed to 
help, not set aside but to telescope that process, so that 
there was adequate review, but it wasn't delay. It was an 
expedited planning process to get the job done right as quickly 
as possible.
    It has been done. There are examples for it. There is a 
procedure where I think the President can designate a high 
priority to five or ten areas or projects. But this is sort of 
a mega-project which would probably require working with the 
State Departments of Transportation in order to define and 
facilitate. But I think it is probably worth taking a look at 
it in any event.
    Mr. Bachus?
    Mr. Bachus. Thank you. I want to ask a few questions of Mr. 
Deville and Mr. Brashear. The New Orleans Regional 
Transportation Authority had 372 buses, is that correct?
    Mr. Deville. Yes, sir, that is correct.
    Mr. Bachus. At one time, I read where 200 of them were 
lost. Did that come down?
    Mr. Deville. There were close to 200 RTA buses that were 
flooded at our Canal Street Station. We have two major bus 
facilities, East New Orleans and Canal Street. Traditionally, 
our hurricane plan, evacuation plan calls for us to remove the 
East New Orleans buses to a safer site because it floods there 
more often as opposed to Canal Street where in history, modern 
history, had not flooded. So we put a little over 200 buses or 
close to 200 buses on the wharf out of East New Orleans, and we 
operated out of the Canal Station with just under 200 buses for 
the regular service as well as those we needed to evacuate 
with.
    Mr. Bachus. Were all of them lost from flooding, or any 
from vandalism, or anything else?
    Mr. Deville. You see, once the storm was over, we were in 
pretty decent shape. But once the levees became a problem, and 
the flooding got to be a problem, between the night of the 
storm and that, there were a number of lay people, so to speak, 
that commandeered buses to evacuate themselves. They saw the 
buses, found out how to start them up and get them running, and 
took off. We found some in different parts of the State over 
the last few weeks. I witnessed that myself.
    The other thing was that the military, the FEMA, and 
National Guard that were in New Orleans when nobody else could 
go in, they used the buses themselves to transport themselves, 
the police, the firemen, etcetera. What happened was that many 
of those, once they either ran out of gas, or the battery went 
down, or they busted an oil pan in the street, they left it 
there and went and got another one.
    So we do have a lot of damaged buses as a result of that 
combination of efforts. There are the flooded buses on Canal 
Street, just under 200. Then the buses that we had saved on 
higher ground at the wharf, a lot of those were commandeered by 
what I just said.
    Mr. Bachus. Do you have a new plan now for locating them, 
say, out of New Orleans if another hurricane were to approach?
    Mr. Deville. Absolutely. First of all, we want to make sure 
that we know what kind of protection we are going to have with 
the levee system. Secondly, we have a team we put together that 
is doing strategic planning in that regard. For instance, there 
is no sense in locating back at Plaza and East New Orleans 
because we know it is going to flood.
    So we are going to move our headquarters to maybe the top 
of the Canal Street building where it is safe, or the Napoleon 
area where it didn't flood at all. Plus, the strategy is to 
move those five days ahead of time. Once the storm hits the 
Gulf, like this particular storm that came, we didn't know 
until Friday night that it would actually come to New Orleans.
    Mr. Bachus. There are specific plans that would avoid a lot 
of what happened?
    Mr. Deville. Yes. Absolutely.
    Mr. Bachus. That rolling stock in the transportation 
facilities, was that insured?
    Mr. Deville. Yes. Yes, sir.
    Mr. Bachus. So you will receive reimbursement from 
insurance for that?
    Mr. Deville. We have started to receive some 
reimbursements, yes. We are in that process now. In fact, we 
are trying to get the FTA and the Congressional folks to 
release the reports that we are working together on so that we 
can get it to the insurance companies.
    Mr. Bachus. So you will get a certain amount of insurance 
funds, and then anything above that, you will seek 
reimbursement?
    Mr. Deville. Precisely. We have already applied to FEMA, 
and we are waiting for those numbers.
    Mr. Bachus. Now presently, in Baton Rouge and New Orleans, 
you all are not charging fare on buses, is that right?
    Mr. Deville. I will let Mr. Brashear talk about Baton 
Rouge. In New Orleans, we were completely wiped out, not only 
the buses and the streetcars but the facilities to operate 
from.
    Mr. Bachus. Right.
    Mr. Deville. So as the military cleared things up, and the 
National Guard and FEMA are starting to allow people back, then 
of course we lost over 180 vehicles in that area as well as 
homes. Transportation is needed. People have a lot of things, 
their personal belongings.
    Mr. Bachus. Sure, and I am not questioning. I guess my 
question is, you are not presently charging fares?
    Mr. Deville. In New Orleans, no, we are not.
    Mr. Bachus. Do you know, is there any thought to when you 
will resume charging fares?
    Mr. Deville. Well, that is a tough question. Initially, 
FEMA has agreed to do it for 6 months, 24 weeks to be exact. 
And of course, as we proceed and get closer to that deadline, 
we will reevaluate. Under the program management plan, we will 
constantly reevaluate it on a weekly basis.
    Mr. Bachus. Will you be reimbursed for that, for the lost 
fares?
    Mr. Deville. No, we are not being reimbursed for lost fares 
at this point in time.
    Mr. Bachus. Okay. Now, the streetcars, you just made 
reference to that. Of course, the streetcars are absolutely 
essential, I think, to restore the tourism.
    Mr. Deville. It is a structure.
    Mr. Bachus. Anybody who has been to New Orleans knows how 
important they are. Can you give us a time frame on when the 
trolley streetcar lines will be back in operation, say to as 
they were before Hurricane Katrina?
    Mr. Deville. We have currently one of our contractors 
evaluating the trucks, that is, the components and their 
circuitry and electronics that are below the seating under the 
vehicle itself. That process is not completed, but we think 
that within several months, we can probably have an answer and 
a response, and get it fixed.
    But in the meantime, we found out that the St. Charles 
streetcars were not flooded, were not damaged, and are 
operable. However, the line, the St. Charles streetcar line, 
the overhead wiring that powers them was destroyed pretty 
badly.
    Mr. Bachus. Sure.
    Mr. Deville. Fortunately, FTA had already awarded us a 
grant to restore and replace. So we can begin that immediately, 
to restore that, and it will probably take about a year or so. 
The plan would be, if the Canal Street cars were all flooded in 
the Canal area, we are asking for permission to use the St. 
Charles cars on the line that is still the Canal line. The 
challenge is that they are not ADA accessible.
    So what we would like to do is run parallel service with 
buses and para-transit vans and utilize that streetcar. So 
people can see that the City is coming. The infrastructure is 
starting to come back. And this would be for a short term, 
temporarily.
    Mr. Bachus. Will you need waivers to do that?
    Mr. Deville. That is what we are seeking. Yes, sir.
    Mr. Bachus. Okay. Would that be a Federal waiver?
    Mr. Deville. Yes, sir.
    Mr. Bachus. Okay. I guess this will be my last question in 
that regard. You mentioned the need for a waiver in that case. 
I think Mr. Bradbery mentioned the need for waivers. Well, let 
me say this. If you recall, New York City received a number of 
Federal relief from a lot of regulatory red tape and regulatory 
relief, and I think the gentleman from Mississippi mentioned 
the need for some of that today.
    Have you all looked at what New York was offered and the 
different regulatory relief that they were granted? Do you 
maybe have a list, or could you supply us a list of what 
Federal regulatory requirements you need relief from, and why 
you think it is necessary? I want to ask you. You might just 
mention one or two, but I think a listing of those. And also, 
were you all aware that New York Metropolitan Area was given a 
substantial number of Federal regulatory waivers?
    Mr. Bradbery. We will do our best to put a list together 
and get it to you. The one that is of most interest to us is a 
waiver on the conformity determination as to the Clean Air Act. 
For us, it is particularly critical because of the surge of 
population into Baton Rouge, in particular. The projects that 
we want to do to try to relieve some of that congestion are 
going to require that we receive this waiver. The City of New 
York was granted that waiver after 9/11, and we believe that we 
can get it granted as well.
    Mr. Bachus. Have you been granted those waivers yet?
    Mr. Bradbery. No, we have not.
    Mr. Bachus. All right.
    Mr. Bradbery. Congressman Baker has introduced a bill in 
the House to address this.
    Mr. Bachus. Okay, good. Well, Congressman Baker thinks of a 
lot of things. He is very ahead of the curve on these things. 
So that is very good.
    We appropriated $62 billion in early September. Of that, I 
would ask the highway officials, of the amount of expenditures 
you have had, maybe what percentage have you been reimbursed, 
and what is the total amount of Federal dollars that you have 
been reimbursed? Now, all that $62 billion was not highway 
money for bridges and roads, but we were told, obviously, that 
was on of the major appropriations within that bill.
    Mr. Bradbery. On the Emergency Relief Fund side by Federal 
Highways, none of that $62 billion. The Stafford Act does not 
allow any of that money to be put into that fund. Consequently, 
Federal Highways had $10 million in that fund, and they gave $5 
million of that $10 million to Louisiana and $5 million to 
Mississippi.
    To date, that is all that we have received relative to 
monies from the Emergency Relief Fund. Louisiana has a need of 
$1.1 billion that has to come from the Emergency Relief Fund, 
unless it is appropriated in a different way.
    Mr. Bachus. Okay. So I guess you have to pay these out of 
the State coffers, the money, and then just hope for 
reimbursement.
    Mr. Bradbery. Yes, sir, that is what we are doing now. That 
is why I am saying our cash flow is going to become a critical 
issue here fairly soon. On the FEMA side, the $62 billion side, 
to date, our department, our agency has only gotten $1.1 
million back. We have exposed out there. We are going to have 
exposed on debris cleanup and so forth, at least $360 million.
    Mr. Bachus. What pressures has that put on both the State 
of Mississippi and the State of Louisiana? I am not leaving 
Alabama out, but it is a much smaller scale.
    Mr. Bradbery. For us in the State of Louisiana, it puts a 
lot of pressure on us because it jeopardizes the normal 
transportation development program. If I have to take money 
from those pots, then I don't do anything else in the State. 
That whole program is now at risk. I also have the risk of 
losing Federal dollars because I don't have State monies to 
match. So it is a real critical issue for us.
    Mr. Higgins. We are in exactly the same boat in 
Mississippi. We spent $26.1 million. So far, we have gotten $5 
million back. Also, another thing that my colleagues asked me 
to pass on to you all. I forgot to mention it earlier with Mr. 
Brown's testimony. We have been told for the eastbound lanes of 
Highway 90, we would be reimbursed 100 percent, but for the 
westbound lanes, we won't be. We haven't figured that one out 
yet.
    Mr. Bachus. Okay.
    Mr. Brown. We haven't been reimbursed for any of it yet.
    Mr. Petri. Mr. Baker, anything else?
    Mr. Baker. Mr. Chairman, I wanted to get clarification. I 
think I heard you say that eastbound would be reimbursable, but 
westbound lanes on the same route are not reimbursable?
    Mr. Higgins. That is what they told me.
    Mr. Baker. And they have not given a written explanation as 
to why?
    Mr. Higgins. No, not yet.
    Mr. Baker. May I inquire who said this to you?
    Mr. Higgins. The FHWA folks.
    Mr. Baker. Was this I-90 or I-10?
    Mr. Higgins. This is 90, Highway 90 down on Beach.
    Mr. Baker. Okay, Highway 90.
    Mr. Higgins. Yes, right.
    Mr. Bachus. I guess if we are going north-south, it is just 
a guess whether that will work.
    [Laughter.]
    Mr. Higgins. I don't know. It is very frustrating.
    Mr. Petri. I thank you all very much for coming here and 
discussing this. I really want to, again, underline how 
appreciative of the time you have taken to come up here and how 
much we understand the strain that not only you but your 
employees in your departments, as well as the citizens of your 
states, have undergone. It has been a traumatic time.
    As you know, the Congress as a whole has responded twice 
with two large appropriations of money. It is causing a certain 
amount of turmoil up here in the budget process because there 
is this perception somehow that we are ladling tremendous 
amounts of money out without figuring out how to pay for it, 
and really just sort of putting it on the tab without people 
really understanding that very little of this money and a 
percentage of the $72 billion that has been appropriated has 
actually spent.
    Secondly, unless we do spend money, obviously prudently but 
quickly and reasonably, to get infrastructure and to get the 
economy moving again, it is going to be costing us a lot more 
money in terms of economic loss because the people cannot have 
jobs if they don't have roads and other infrastructure. If they 
don't have jobs, they can't pay the taxes, they can't pay their 
other obligations, and so it goes.
    So we are not going to really save any money or anything by 
not moving as quickly as possible to spend what it takes up 
front to get the economy back on its feet so that you have 
revenue flowing, we have revenue flowing. People aren't going 
to be paying Federal taxes in that region if they don't have 
jobs. So some of it will be paid back just because people will 
be paying in once the economies are restored. We shouldn't 
ignore that part of the equation, though it has been ignored 
largely in this discussion.
    In any event, we are obviously eager to work with you and 
with your delegation members to do whatever needs to be done at 
this end of the Hill to make sure that there are as few 
glitches as possible in terms of actually getting money flowing 
to solve some of the problems you are talking about.
    Mr. Bachus. Mr. Chairman.
    Mr. Petri. Yes.
    Mr. Bachus. One thing I might add that Mr. Vaughn 
mentioned, as I understand it, FEMA does not reimburse for 
evacuation-related expenditures.
    Mr. Vaughn. That is correct. The emergency relief funds 
that come through Federal Highway are only available after the 
disaster. They are not available to help us in pre-disaster 
preparation.
    Mr. Bachus. And it doesn't provide any funding for that?
    Mr. Vaughn. It does not.
    Mr. Bachus. Which is what we ought to really encourage. We 
ought to encourage as much evacuation as we can get. That 
appears to be a pretty penny-wise and pound-foolish thing to 
do, particularly when like in the case of Mississippi, a lot of 
the evacuation was people from Louisiana. We have people going 
from one State to another. In cases, you have people coming 
from Alabama and Mississippi into Louisiana.
    We certainly ought to fund something like that. That would 
avoid this and encourage those things to happen, and to be 
adequately funding so we can not only save lives and property, 
but encourage people to get out and allow them to get on their 
way. If you saw all the films, all of us did, a tremendous 
amount of frustration from people being caught on the roads and 
the delays that were taken. If we are going to encourage 
orderly evacuations, it is certainly something we need to 
reconsider.
    Mr. Higgins. Mr. Chairman, if I may, the good news out of 
that is that this is the first time we have tried contraflow in 
Mississippi, and from our side, it worked well. I understand, 
Secretary Bradbery, it did in Louisiana. So it is something 
that yes, we absolutely need to do it every time now that storm 
like this threatens, and it is expensive.
    Mr. Bradbery. It is expensive. I think the relationship 
that we have with Mississippi to do that is working great. It 
is a sign of partnership and learning from each other, and it 
was really successful in terms of evacuation this last time.
    Mr. Petri. Very good. We thank you again for your testimony 
and for your response to the questions today. The hearing is 
adjourned.
    [Whereupon, at 4:50 p.m., the subcommittee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] T5919.001
    
    [GRAPHIC] [TIFF OMITTED] T5919.002
    
    [GRAPHIC] [TIFF OMITTED] T5919.003
    
    [GRAPHIC] [TIFF OMITTED] T5919.004
    
    [GRAPHIC] [TIFF OMITTED] T5919.005
    
    [GRAPHIC] [TIFF OMITTED] T5919.006
    
    [GRAPHIC] [TIFF OMITTED] T5919.007
    
    [GRAPHIC] [TIFF OMITTED] T5919.008
    
    [GRAPHIC] [TIFF OMITTED] T5919.009
    
    [GRAPHIC] [TIFF OMITTED] T5919.010
    
    [GRAPHIC] [TIFF OMITTED] T5919.011
    
    [GRAPHIC] [TIFF OMITTED] T5919.012
    
    [GRAPHIC] [TIFF OMITTED] T5919.013
    
    [GRAPHIC] [TIFF OMITTED] T5919.014
    
    [GRAPHIC] [TIFF OMITTED] T5919.015
    
    [GRAPHIC] [TIFF OMITTED] T5919.016
    
    [GRAPHIC] [TIFF OMITTED] T5919.017
    
    [GRAPHIC] [TIFF OMITTED] T5919.018
    
    [GRAPHIC] [TIFF OMITTED] T5919.019
    
    [GRAPHIC] [TIFF OMITTED] T5919.020
    
    [GRAPHIC] [TIFF OMITTED] T5919.021
    
    [GRAPHIC] [TIFF OMITTED] T5919.022
    
    [GRAPHIC] [TIFF OMITTED] T5919.023
    
    [GRAPHIC] [TIFF OMITTED] T5919.024
    
    [GRAPHIC] [TIFF OMITTED] T5919.025
    
    [GRAPHIC] [TIFF OMITTED] T5919.026
    
    [GRAPHIC] [TIFF OMITTED] T5919.027
    
    [GRAPHIC] [TIFF OMITTED] T5919.028
    
    [GRAPHIC] [TIFF OMITTED] T5919.029
    
    [GRAPHIC] [TIFF OMITTED] T5919.030
    
    [GRAPHIC] [TIFF OMITTED] T5919.031
    
    [GRAPHIC] [TIFF OMITTED] T5919.032
    
    [GRAPHIC] [TIFF OMITTED] T5920.196
    
    [GRAPHIC] [TIFF OMITTED] T5919.033
    
    [GRAPHIC] [TIFF OMITTED] T5919.034
    
    [GRAPHIC] [TIFF OMITTED] T5919.035
    
    [GRAPHIC] [TIFF OMITTED] T5919.036
    
    [GRAPHIC] [TIFF OMITTED] T5919.037
    
    [GRAPHIC] [TIFF OMITTED] T5919.038
    
    [GRAPHIC] [TIFF OMITTED] T5919.039
    
    [GRAPHIC] [TIFF OMITTED] T5919.040
    
    [GRAPHIC] [TIFF OMITTED] T5919.041
    
    [GRAPHIC] [TIFF OMITTED] T5919.042
    
    [GRAPHIC] [TIFF OMITTED] T5919.043
    
    [GRAPHIC] [TIFF OMITTED] T5919.044
    
    [GRAPHIC] [TIFF OMITTED] T5919.045
    
    [GRAPHIC] [TIFF OMITTED] T5919.046
    
                                    

</pre></body></html>
